No

IN THE SUPREME COURT
OF THE T]NITED STATES

MARTIN G. LEWIS,
Petitioner,

v
DEWAYNE HE,NDRIX,
Respondent.

On Petition For Writ Of Certiorari To
The United States Court Of Appeals
For The Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

Stephen R. Sady
Chief Deputy Federal Public Defender
101 SW Main Street, Suite 1700
Portland, Oregon 97204
(s03) 326-2123

Attorney for Petitioner

QUESTTON PRESENTED
Under 28 U.S.C. $ 2255(e), habeas corpus petitioners challenging the constitutional

validity of federal convictions can obtain relief under 28 U.S.C . S 2241if the remedy under
28 U.S.C. g 2255(a) wasooinadequate or ineffectivetotestthe legality of his detention."

This case asks whether a petitioner has an adequate or effective shot at $ 2255(a) relief

when prior litigation was procedurally barred on grounds that the government later
conceded was wrong. Mr. Lewis asserted that his prior federal conviction was invalid after

Burrage v. United States,57 | U.S. 204 (2014). The government has conceded that Burrage
is a substantive and retroactive decision in five Circuits, but successfully argued that the
district court lacked jurisdiction over Mr. Lewis's S 224I petition because prior claims had
been barred on grounds of Burrage's supposed non-retroactivity. The question presented
1S

Whether the government should be foreclosed from relying on prior litigation
that it concedes incorrectly invoked a proceduralbar to review on the merits
to argue that the district court lacked habeas corpus jurisdiction because the
petitioner had a prior adequate and effective opportunity to test the legality
of his detention under 28 U.S.C. $ 2255(e)?

PARTIES TO THE PROCEEDINGS

The petitioner, Martin Lewis,

is a

federal prisoner housed at the Federal

Correctional Institution in Sheridan, Oregon. The respondent, DeWayne Hendrix, is the
Warden of FCI Sheridan.

RELATED PROCEEDINGS
There are no related proceedings except a pending compassionate release motion
under 18 ll.S.C. g 35S2(c)(lXAXi) in the case of Lewis v. United States, No. 00 Cr.

l1l8

(JSR) (S.D.N.Y. filed Sept. 24,2020). The issue in that case only pertains to the sentence
imposed, while this petition relates to the conviction itself.

TABLE OF CONTENTS
Page

Table of Authorities .........

111

Opinions Below.....

1

Jurisdictional Statement

2

Relevant Statutory and Constitutional Provisions

2

Summary Of Reasons For Granting A Writ Of Certiorari

4

Statement Of The Case...

5

A.

Initial Conviction And This Court's Intervening Authority In Burrage

B.

Pro Se Efforts At Review Rejected Based On Non-Retroactivity Of
...,..,.6
Bunage

C.

TheGovernment'slnconsistentPositions,ArguingNon-Retroactivity
As To Mr. Lewis

9

t2

Reasons For Granting The Petition...

I

5

In The Context Of The Courts Of Appeals' Deep Split Over The Scope Of
The 28 U.S.C. $ 2255(e), The Court Should Set A Minimum Standard That
The Government's Adoption Of Inconsistent Legal Positions Can Render
Previous Potential Remedies "Inadequate Or

A

B

C.

Ineffective."

............'.....12

The Circuit Conflict On The Scope Of $ 2255(e) Implicates The
Executive Branch's Procedural Advantage From Taking Inconsistent
Substantive Positions On The Law.

r3

The Majority Of Circuits Allow Saving Clause Petitions That Raise
Claims Previously Barred By Circuit Precedent That Have Since Been
Overruled....

t6

Two Courts Of Appeals Take The Opposite Position. ..........

...17

D

E.

F.

The Minority View Of The Scope Of The Escape Hatch Violates Core
Protections Against Incarceration Beyond The Scope Of Legislative
Enactments.

t9

This Court Should Grant Certiorari To Resolve The Circuit Conflict
And Address The Government's Procedural Advantage From Taking
Inconsistent Substantive Legal Positions.

2I

This Case Presents An Appropriate Vehicle For Resolving
Conflict...

The

23
25

Conclusion

INDEX TO APPENDIX
Ninth Circuit Memorandum Opinion

1

District Court Order to Dismiss

5

Ninth Circuit Denial of Petition for Rehearing.....

T6

28 IJ.S.C. $ 224r

t7

28 U.S.C. $ 2244

L9

22ss

2t

28 rJ.S.C.

S

ii

TABLE OF AUTHORITIES
Page

SUPREME COURT OPINIONS
Alleyne v. United States,
s70 u.s. e9 (2013)

6, l0

Brgoy v. United States,
5s3 U.S. r37 (2008) ......

22

Bollingv. Sharpe,
347 U.S. 497 (r9s4)

J

Boumediene v. Bush,
ss3 rJ.s 723 (2008)

20

Bousley v. United States,
s23 U.S. 614 (1ee8)

t9

Bradshaw v. Stumpf,
s4s u.s. r7s (200s)

a

13

.

Burrage v. United States,
s7l u.s. 204 (2014)

passtm

Chambers v. United States,
s5s u.s. t22 (2009) ...........

22

Dep't of Interior v. S. Dakota,
s19 U.S. 9r9 (t996)

l3

Dretke v. Haley,
s41 U.S. 386 (2004)

20

Fiore v. White,
s31 U.S. 22s (200t)

t9

Hamdan v. Rumsfeld,
s48 U.S. ssj (2006)

20

Holland v. Florida,
s60 u.s.631 (2010)

20

.

111

Itr/S v. St. Cyr,
s33 U.S. 28e

(200r)

Jacobs v. Scott,
s13 U.S. 1067

(rees)

20
13

..

Lawrence on Behalf of Lawrence v. Chater,
s16 U.S. 163 (tee6)

13

Maples v. Thomas,
s6s u.s. 266 (2012)

20

Mathis v. United States,
136 S. Ct.2243 (2016)

2t-22

McQuigginv. Perkins,

..

s69 U.S. 383 (2013)

Rehaif v. United States,
r39 S. Ct.2t9l (20t9)

20

2l

Rivers v. Roadway Exp., Inc.,
s 1 1 U.S. 2e8 (tee4)

,, |7

Rumsfeld v. Padilla,
s42 U.S. 426 (2004) ........

22

Schlup v. Delo,
s13 u.s. 298 (rges)

20

Swainv. Pressley,

430 U.S. 372 (1977)

20

United States v. Santos,
ss3 u.s. s07 (2008)

22

FEDERAL COURT OPINIONS
Abdullah v. Hedrick,
392F.3d 957 (8th Cir.2004)

Alaimalo v. United States,
64s F.3d 1042 (9th Cir. 2011)

t6
10,16,

.

Bruce v. Warden Lewisburg USP,
868 F.3d 170 (3d Cir.2017)

17

12,22
1V

Bryant v. Warden, FCC Coleman-Medium,
738 F.3d 1253 (rlth Cir. 2013)

t2

Cephas v. Nash,
328 F.3d 98 (2d Cir. 2003)

l7

.

Chazenv. Marske,
938 F.3d 851 (7th Cir.2019)

In re Davenport,

147 F.3d 605 (7th

23

t6

Cir. 1998) ..

In re Dorsainvil,

119 F.3d 24s (3d Cir. 1997)

t6

Harrington v. Ormond,
900 F.3d 246 (6th Cir. 2018)

t4

Krieger v. United States,
842 F .3d 490 (7th Cir. 2016)

t4

.

Martin v. Perez,

t6

319 F.3d 799 (6th Cir.2003)

McCarthanv. Dir. of Goodwill Indus.-Suncoast, Inc.,
851 F.3d 1076 (1 lth Cir. 2017) (en banc)

12,18,19

Prost v. Anderson,
636 F.3d s78 (1Oth Cir. 2011) ...

18

Ragland v. United States,
784 F.3d 1213 (8th Cir. 2015)

t4

.

Reyes-Requena v. United States,
243 F.3d 893 (5th Cir. 2001) ...

16

Santilla v. (Jpton,
846 F.3d 779 (5th Cir. 20t7) ...

l4

In re Smith,

t6

285 F.3d 6 (D.C. Cir.2002) ....

Stephens v. Herrera,
464F.3d 895 (9th Cir. 2006)

t7

Triestman v. United States,

v

t6

r24 F .3d 36r (2d Cir. 1997)
United States v. Barrett,
178 F.3d 34 (1st Cir. t999)

16

United States v. Brooks,
230 F.3d 643 (3d Cir.2000) ....

l7

United States v. Wheeler,
734F. App'x 892 (4th Cir. 2018)

23

United States v. Wheeler,
886 F.3d 41s (4th Cir. 2018)

t6

Wofford v. Scott,
t77 F.3d 1236 (llth Cir. t999)

18

Ihight

v. Spaulding,
939 F.3d 695 (6th Cir.2019)

12,22,23

..,

Young v. Antonelli,
982 F.3d 914 (4th Cir. 2020) ....

13

UNITED STATES CODE
t9

l8 U.S.C. $ a001(a)
U.S.C. $ e2a(c))

5

l8 U.S.C. $ 19se(a)

5

18

6, 10

21 U.S.C. $ 841
28

....,.,.,,.. 2

u.S.c. $ 12s4(1)

... passim

28 U.S.C. S 224r

2,7

28 U.S.C. S 2244 .......

........ passtm

28 IJ.S.C. $ 22ss

vi

No.

IN THE SI'PREME COURT
OF THE LINITED STATES

MARTIN G. LEWIS,
Petitioner,
V

DEWAYNE HENDRIX,
Respondent

On Petition For Writ Of Certiorari To
The United States Court Of Appeals
For The Ninth Circuit
The petitioner, Martin G. Lewis, respectfully requests that a writ of certiorari issue
to review the judgment of the United States Court of Appeals for the Ninth Circuit entered
on November 13, 2020.

Opinions Below
The United States District Court for the District of Oregon ordered the petitioner's
habeas corpus petition dismissed in an unpublished order on December20,2018. Appendix

5. The Ninth Circuit affirmed the district court's dismissal in a memorandum opinion on

I

November 13,2020. Appendix 1. The Ninth Circuit denied a timely petition for panel
rehearing and rehearing en banc on January 22,2021. Appendix 16.

Jurisdictional Statement
This Court's jurisdiction is invoked under 28 ll.S.C. $ 1254(1).

Relevant Statutory and Constitutional Provisions
The full text of 28 U.S.C. $$ 2241 (Power to grant the writ), 2244 (Finality of
determination), and 2255 (Federal custody; remedies on motion attacking sentence) are set

out in the Appendix. The most relevant parts of the statutes include the general habeas
corpus power to grant the writ under $ 22412

(a) Writs of habeas colpus may be granted by the Supreme Court, any justice
thereof, the district courts and any circuit judge within their respective
jurisdictions. The order of a circuit judge shall be entered in the records of
the district court of the district wherein the restraint complained of is had.
*

*

*

(c) The writ of habeas corpus shall not extend to a prisoner

unless-

(1) He is in custody under or by color of the authority of the United
States or is committed for trial before some court thereof; or
(2) He is in custody for an act done or omitted in pursuance of an Act
of Congress, or an order, process, judgment or decree of a court or
judge of the llnited States; or
(3) He is in custody in violation of the Constitution or laws or treaties
of the United States; or

The statutory authority to bring a $ 2255 motion provides the normal vehicle for
constitutional challenges to the validity of federal convictions

2

prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the sentence
was imposed in violation of the Constitution or laws of the United States, or
that the court was without jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized by law, or is otherwise
subject to collateral attack, may move the court which imposed the sentence

A

to vacate, set aside or correct the sentence.

28 U.S.C. $ 2255(a). However, the "escape hatch" or'osavings clause" permits a $ 2241
petition in lieu of a $ 2255(a) motion when the remedy is "inadequate or ineffective to test
the legality of his detention":
habeas co{pus in behalf of a prisoner who is
authorized to apply for relief by motion pursuant to this section, shall not be
entertained if it appears that the applicant has failed to apply for relief, by
motion, to the court which sentenced him, or that such court has denied him
relief, unless it also appears that the remedy by motion is inadequate or
ineffective to test the legality of his detention.

An application for a writ of

28 U.S.C. $ 22ss(e).

The Suspension Clause of the Constitution guarantees that "The Privilege of the

Writ of Habeas Corpus shall not be

suspended, unless when

in

Cases

of Rebellion or

Invasion the public Safety may require it." lJ.S. Const. Art. 1, $ 9. The Fifth Amendment's

Due Process Clause, which incorporates the Fourteenth Amendment's protection against
denial of "the equal protection of the laws," states that no person shall "be deprived of life,

liberty, or property, without due process of law[.]" U.S. Const. Amend.Y; Bolling
Sharpe,347 U.S. 497,498 (1954).

a

J

v.

Summary Of Reasons For Granting A Writ Of Certiorari
According to the Solicitor General, an "entrenched conflict exists in the courts of
appeals on whether the saving clause allows a defendant who has been denied Section 2255

relief to challenge his conviction or sentence based on an intervening decision of statutory

interpretation." (Jnited States v. Wheeler, No. 18-420, Pet. for Cert. at 23 (U.S. Oct. 3,
2018). The Ninth Circuit, and

a

majority of Circuits, have found that an intervening judicial

opinion interpreting a statute can render earlier litigation "inadequate or ineffective,"
thereby allowing habeas corpus review of an otherwise defaulted claim under $ 2255(e)'
But even among the majority of Circuits permitting review, the baseline of what constitutes
an "unobstructed procedural shot"

- under the Ninth Circuit's rubric -

remains undefined.

The present case provides a clean vehicle for the Court to not only resolve the

conflicts among the Circuits regarding the standard for determining whether earlier
litigation was "inadequate or ineffective" under $ 2255(e), but also to set a minimum
standard addressing the recurring problem

of the Executive Branch's

adoption of

inconsistent legal positions. This Court has expressed unease and provided limited
remedies when the Executive Branch adopts inconsistent substantive legal arguments. But
here, the Executive Branch obtained aproceduralbenefit, foreclosing habeas corpus

relief

based on prior litigation premised on the inconsistent substantive position.

Specifically, Mr. Lewis's initial pro se efforts to seek post-conviction relief were
snuffed based on rulings that Burrage was not a retroactive substantive decision. In the
Oregon district court, the government asserted those rulings foreclosed jurisdiction to
4

consider Mr. Lewis's Burrage claims, despite their inconsistency with the government's

repeated concessions

in at least five

different Circuits that Burrage constituted

a

substantive and, therefore, retroactive decision.
Because

Mr. Lewis has at all phases of the current litigation raised the Executive

Branch's inconsistent positions on Burrage retroactivity, this case provides an excellent

vehicle for review. The issue is exceptionally important because questions of $ 2241
jurisdiction arise every time this Court provides a substantive interpretation of a federal
criminal statute. The possible incarceration of

a person

whose conduct is not subject to the

federal statute involves core liberty values, and the denial of a habeas corpus as a forum,

or any forum for review, implicates both the suspension of the writ of habeas corpus and
the guarantee that liberty will not be denied without due process of law.
The Court should grant the writ of certiorari and order full briefing on the merits. In

the alternative, the Court should grant the writ, vacate the Ninth Circuit's ruling, and
remand for the lower court

to expressly

address the Executive Branch's adoption

of

inconsistent position on the substantive issue, which resulted in a procedural windfall for
the government.

Statement Of The Case

A.
In

Initial Conviction And This Court's Intervening Authority ln Burrage

2002, Mr. Lewis was convicted after

jury trial of conspiracy to commit murder

in aid of racketeering, murder in aid of racketeering, and use of a firearm during a crime
violence, in violation

of

of

18 U.S.C. $$ 92a(c), 1959(a)(1) and (2), and 1959(a)(5). The
5

government asserted that Mr. Lewis was a member of a criminal organization and, for a
price, shot another gang member in the head, torso, and arm. At trial, consistent with circuit
precedent at the time, neither the indictment nor the

jury instructions required that Mr.

Lewis's actions be proven as the but-for cause of the death of the deceased. The trial court
excluded evidence and argument that the death resulted from intervening malpractice
during intubation at the hospital rather than the non-fatal shooting.
On January 27,2014, this Court issued its opinion in Burrage v. (Jnited States,5Tl

U.S. 204 (2014), reversing a conviction for death resulting from a drug transaction under
21 II.S.C. $ 841(bXl)(C). The Court in Burrage rejected the government's "contributes-

to" theory of causation, holding that the government bore the burden to prove "but-for"
causation for the death. 571 U.S. at210-18. The Court based its reasoning on the common

law

as

well

B.

as the need

for certainty in criminal statutes on questions of causation.Id.

Pro Se Efforts At Review Rejected Based On Non-Retroactivify Of

Burrage

Following Burrage, Mr. Lewis sought to establish that he was actually innocent of
the murder charge because, while he contributed to the victim's death, he was not its "but-

for" cause. Mr. Lewis twice applied in the Second Circuit for authorizationto file a second
or successive $ 2255 motion. The Second Circuit denied relief, holding that Burrage was
not a new rule of constitutional law that applied retroactively, citing as authority the nonretroactive decision of Alleyne v. United States,570 U.S. 99 (2013). In any event, the

6

statute on second or successive claims for relief on its face does not apply to intervening
changes in statutory law.28 U.S.C. S 2244(d)(l).

Mr. Lewis next filed a $ 2241petition in the Middle District of Florida, where he
was then confined. The Florida district court summarily denied relief based on the Second

Circuit's determination that Burrage was not retroactive: "As noted in the Second Circuit's

April 25,2016, Order denying Petitioner's motion for leave to file a successive
S 2255 motion,

Burrage did not announce

a

28 U.S.C.

new rule of constitutional law made retroactive

by the Supreme Court to cases on collateral review." Lewis v. Salazar, No. 19-35018,
Docket No. 26, at l0

| n.2 (9th Cir. 2020) (excerpts of record).

The Florida district court

o'is
not taken in good faith" and directed the request to
certified that Mr. Lewis's appeal

proceed in forma pauperis to the Eleventh Circuit. The Eleventh Circuit then adopted the

district court's view that the change in case law applied prospectively only, deeming the
appeal frivolous, denying in forma pauperis authorization, and dismissing the appeal for

lack of prosecution.
On June 21,2018, Mr. Lewis, now a prisoner in the District of Oregon, filed a pro
se

petition for a writ of habeas corpus under S 2241 asserting that his convictions and life

sentence were invalid due to the retroactive effect of Burrage. Lewis, supra, Docket No.

26, at 80. In the pro se petition, he asserted that the jury was not permitted to determine

whether he was the cause of the victim's death: the trial court did not require the
government to establish but-for causation when the shots were not fatal; and the death

actually resulted from the treating doctor's improper intubation of the victim. Id. at89.
7

Mr. Lewis's petition relied on three sources to establish that his actions could not
have been found beyond a reasonable doubt to have been the but-for cause of death. First,

Mr. Lewis asserted that the trial testimony established that, upon arcival at the hospital,
"the victim was expected to survive the gunshot wounds because none of the bullets had

hit any vital areas in the body." Lewis, supra, Docket No. 26, at90. He arrived alive and
conscious, spoke to a detective, opened his eyes, and moved around. Id. The physician
attending to the victim advised the detective that the victim was not going to die.

Id' The

victim was expected not only to survive but to be released from the hospital in a reasonable
time. Id.

at9l.

Second,

Mr. Lewis's petition stated that the trial court excluded expert testimony

from a medical examiner regarding the cause of death from improper intubation. Lewis,
supra, Docket No. 26, at 9I. Mr. Lewis's defense team attempted to raise a reasonable
doubt regarding causation, arguing the improper intubation as the sole intervening cause

of death. Id. at 3l-32,

gl,

106-07. The proffer for the defense included that the intubation

was not medically necessary and that "the expert would require that he would list gunshot

wounds as one of the causes [of death], albeit further down the list of causes. He would
label the primary cause as pneumopericardia lfrom the intubation.l" Id. at 107. The trial
court excluded the proffered expert evidence, citing New York state law on causation. Id.

9t-92,107-108.
Third, the petitioner submitted extrinsic evidence regarding the intubating doctor's
record of malpractice. Lewis, supra, Docket No. 26, at 40-41, 46-58. He argued that the
8

doctor's record of improper medical procedures and subsequent bar from medical practice
supported his inference that, while the shots contributed to the death, they were not the but-

for cause. He asserted that, "But-For the improperly performed precautionary intubation
procedure by a doctor who has since been stripped of his license to practice medicine[,]"
the decedent would have survived. Id. at 40-41'

Under the dismissal standard, the facts and inferences alleged in the petition are
viewed

as

C

true in determining whether they plausibly suggest an entitlement to relief.

The Government's Inconsistent Positions, Arguing Non-Retroactivity
As To Mr. Lewis.

In the Oregon district court, the government moved to dismiss for want of
jurisdiction, claiming the case did not fall within the "escape hatch" of $ 2255(e) and
therefore not cognizable under S 2241. Lewis, supra, at 60^61. Although Mr. Lewis noted

the government concessions regarding Burrage's retroactivity, the district court ruled the

prior proceedings governed. Id. at 41. Despite finding that the defendant "had no
opportunity to present his Burrage claim during either direct appeal or his first 28 U.S.C'
5 2255 motion," the district court dismissed the motion for lack ofjurisdiction because the
defendant had presented "precisely this claim" in his earlier second and successive $ 2255

applications in the Second Circuit and in his $ 2241 petition in the Middle District of

Florida. Appendix 12-13. Although the decisions regarding Mr. Lewis' earlier petitions
were predicated on the procedural bar of non-retroactivity, an issue that the court did not

9

reach, the district court concluded that Mr. Lewis had failed to demonstrate lack of an
unobstructed procedural shot under the Ninth Circuit's $ 2255(e) standard. Id. at 13'14.

Mr. Lewis appealed the court's ruling to the Ninth Circuit, where he received
appointed counsel for the first time in his post-Burrage efforls. He argued that the district

court's dismissal directly contradicted the Ninth Circuit's ruling in Alaimalo v. United
States, in which the court held that a $ 224lpetition cannot be barred as successive as long
as a change

in the law occurred "after [the defendant] exhausted his direct appeal and first

S 2255 motion" and as long as the abuse of the

writ doctrine is not implicated. 645 F.3d

1042, 1047,1049 (9th Cir. 2011). Mr. Lewis also asserted that his prior litigation should

not bar merits review because the claims were not heard due to erroneous procedural
rulings on retroactivity that were inconsistent with government concessions in other
jurisdictions.Lewis,supra,DocketNo.25 at12'13,26-28;DocketNo.38 at6-9'
The government's answering brief argued that the previous litigation in the Second

and Eleventh Circuits, which culminated in rulings based on the non-retroactivity of
Burrage, foreclosed jurisdiction over the petitioner's claims. Lewis, supra, Docket No. 30

at 12-13. The government did not adopt its prior concessions that Burrage is retroactive.
Instead,

it supported its earlier reliance on the Second

and Eleventh Circuits by citing an

unpublished Third Circuit case finding Burrage was not retroactive as well as Alleyne,the
case relied upon by the Second Circuit to find Burrage did not apply ietroactively. Id.

But two days before oral argument, the government submitted a letter to "clari$"'

its position, conceding: "Burrage is retroactive to cases involving 21 U.S.C. $ 841's

l0

'results from'sentencing enhancement." Lewis, supra, DocketNo.43 at

l.

Despite the

concession, the government continued to argue that Burrage did not apply retroactively in

the context of Mr. Lewis's case because

it

asserted Bunage was limited

to convictions

under the Controlled Substances Act. Id.

Without reaching the merits, the Ninth Circuit affirmed the district court's dismissal
for lack ofjurisdiction. The court held that Mr. Lewis already had an adequate opportunity
to present his Burrage claims in the Second and Eleventh Circuits:

The district court reasoned that while Lewis did not have an opportunity to
present his claim thal Burrage has retroactive effect during his direct appeal
or his first $ 2255 motion, he had already presented the claim in two separate
motions for leave to file a successive $ 2255 motion in the Second Circuit
and in another S 2241habeas action in the Eleventh Circuit.
Because Lewis has already had multiple opportunities to bring his Burrage
claim, he cannot show that his remedy under S 2255 is inadequate or
ineffective to test the legality of his detention. The district court was correct

to dismiss Lewis's petition for want ofjurisdiction.

Appendix 4. The court said nothing regarding the inconsistent positions taken by the
government regarding retroactive application of Burr age.

Mr. Lewis petitioned for panel rehearing and rehearing en banc because the court
failed to address the government's procedural advantage from inconsistent positions.
Lewis, supra, Docket No. 48. Mr. Lewis asserted the government's inconsistent positions
rendered the prior efforts at review "inadequate or ineffective under $ 2255(e). On January

22,2021, the Ninth Circuit denied rehearing. Appendix

11

16.

Reasons For Granting The Petition

I.

In The Context Of The Courts Of Appealso Deep Sptit Over The Scope Of The
28 U.S.C. g 2255(e), The Court Should Set A Minimum Standard That The
Government's Adoption Of Inconsistent Legal Positions Can Render Previous
Potential Remedies'olnadequate Or Ineffective."
Numerous courts

of

appeals and judges have acknowledged the Circuit split

regarding the scope of $ 224ljurisdiction under the escape hatch in $ 2255(e). See, e.g.,

Bryant v. Warden, FCC Coleman-Medium,738 F.3d 1253,1279

(llth

Cir. 2013) ("There

is a deep and mature circuit split on the reach of the savings clause."), overruled
McCarthan v. Dir. of Goodwill Indus.-suncoast, Inc., 851 F.3d 1076

(llth

by

Cir. 2017) (en

banc); Wright v. Spaulding,939 F.3d 695, 710 (6th Cir. 2019) (Thapar, J., concurring)
(urging this Court to "step in," sooner rather than later, because "[t]he circuits are already

split"); Bruce v. Warden Lewisburg

U^SP, 868

F.3d 170, 179 (3d Cir. 2017) ("Nine of our

sister circuits agreq though based on widely divergent rationales, that the saving clause

permits a prisoner to challenge his detention when a change in statutory interpretation
raises the potentialthathe was convicted of conduct that the law does not make criminal.");
see

generallyBrianR. Means, Federal Habeas Manual $ l:29, Westlaw (2020) (describing

split). The Solicitor General has recognized the disarray and sought this Court's
intervention. Wheeler, supra, Pet. for Cert.

at l2-I3. This Court should resolve the

conflicting opinions by stating a clear and uniform standard allowing review where
change in law creates the potential that an incarcerated person is actually innocent.

t2

a

A.

The Circuit Conflict On The Scope Of $ 2255(e) Implicates The

Executive Branch's Procedural Advantage From Taking Inconsistent
Substantive Positions On The Law.

As this Court has acknowledged, "serious questions are raised when the sovereign

itself takes inconsistent positions in two separate criminal proceedings against two of its
citizens." Bradshaw v. Stumpf 545 U.S. I75,189 (2005) (Souter, J,, concurring) (quoting
Jacobs v. Scott,513 U.S. 1067,1070 (1995)); see Lawrence on Behalf of Lawrence

v.

Chater,516 U.S. 163,175 (1996) ("fP]ostlitigation interpretations may be the product of
unfair or manipulative Government litigating strategies, and we therefore view late changes

of position by the Government with some skepticism."). Justice Scalia discouraged the
Court from reflexive deference to inconsistent positions adopted by the government.

See

Stutson v. United States,516 U.S. 163,188-89 (1996) (Scalia, J., dissenting) (urging the

Court to consider whether "deference should be accorded to a certiorari-stage switch

of

litigation position" in order to prevent the government from "alterfing] the playing field on
appeal" by way of a "bait-and-switch performance."); Dep't of Interior v. S. Dakota, 519
U.S. 919, 921 (1996) (Scalia, J., dissenting) (same).

In the present case, the government successfully argued that earlier

cases based on

the non-retroactivity of Burrage foreclosed relief for Mr. Lewis. In contrast, in published
opinions, the government has conceded that Burrage is a substantive decision that applies

retroactively:

o

"The Warden's position makes our decision easy. He concedes that

if

applicable in the Guidelines context, Burrage would apply retroactively on
collateral review." Young v. Antonelli, 982 F .3d 914,918 (4th Cir. 2020).

l3

as the Government commendably
900 F .3d 246, 249 (6th Cir. 201 8).

"It is also clear that Burrage is retroactive,

concedes." Harrington v. Ormond,
a

a

.

"[The government] contends that evenif Burrage is retroactively applicable,
Santillana cannot meet her burden to show that "[she] may have been
convicted of a nonexistent offense. . . .We disagree." Santilla v. Upton, 846
F.3d779 (5th Cir. 2017).
"The government agrees, conceding that Burrage is substantive because it
defines an essential element of a federal crime in a way that creates the risk
that individuals convicted before the Burrage decision were improperly
convicted of that offense-or in this case, improperly subjected to the
sentence mandated for that offense." Krieger v. United States,842F.3d 490
(7th Cir.20t6).

it

could not prove but-for causation and
Burrage applies retroactively, . . ." Ragland v. United States,784F.3d I2I3,
t2r4 (&th cir. 2015).

"[T]he government conceded

The government's inconsistent positions within the present litigation and with
positions taken

in other Circuits should result in a remand 1) to require that the

government's concession on appeal be addressed in the first instance in the district court,
and 2) to establish that

Mr. Lewis' s $ 2241 petition is not barred by earlier denials of his

and
S 2255 motions, which resulted from the government's unfair procedural advantage

were thus "inadequate or ineffective to test the legality of his detention" for purposes of
the savings clause. 28 U.S.C. $ 2255(e).
To be clear: the petitioner does not assert that the government is bound by the prior

inconsistent positions on substantive questions

of law. There may be

governmental

justifications articulated to the Court that would permit the government to take different
merits positions. For example, the Executive Branch has authority to abandon a legal

l4

position asserted by

a

previous Administration. Although inconsistent, the consequence

of

an election falls within the prerogatives of the Executive Branch, limited by concepts such
as

judicial estoppel. But this Court should establish a clear rule that, when the government

adopts inconsistent litigation positions, the government cannot take procedural advantage

of its inconsistent positions to bar a full and fair hearing on the merits of a criminal
defendant's claims.
Here, the courts hearing Mr. Lewis's earlier Burrage claims incorrectly concluded
that merits review was procedurally barred by the supposed non-retroactivity of Burrage

to any case. Despite the fact that those opinions were contrary to the government's own
concessions, the government nonetheless invoked them to argue that Mr. Lewis had already
had his chance in court. But due to the erroneous premise that Burrage was a procedural

opinion that is not retroactive, the courts never heard the merits of Mr. Lewis's argument
that Burrage's retroactive effect includes its reasoning on causation, not only its narrow

holding. The Court should assure that the government disgorges the procedural benefits of

its inconsistent positions and hold that a defendant has not received an adequate and
effective means to test the legality of his detention when prior litigation is procedurally
barred on grounds the government concedes is wrong.

This case provides an appropriate vehicle for this Court to resolve inconsistencies
amongst the various Circuits' interpretations of $ 2255(e) because its resolution requires

this Court to establish a generally applicable standard under the escape hatch. In other
words, Mr. Lewis's claim squarely presents this Court with an opportunity to resolve the

l5

disarray among the courts of appeal by setting forth a clear standardby which courts may
determine whether a claim under g 2241may proceed to the merits by way of $ 2255(e).

B.

The Majority Of Circuits Allow Saving Clause Petitions That Raise
Claims Previously Barred By Circuit Precedent That Have Since Been
Overruled.

Nine courts of appeals permit saving clause petitions, at least under
circumstances, when circuit precedent at the time of the petitioner's original

S

some

2255 motion

precluded the petitioner's claim, but that precedent has since been overruled. Although
these nine Circuits agree on the concept, they articulate the standard differently:

o

(Jnited States v. Barrett,lTS F.3d 34,51-52

o

Triestman v. United States, 124 F.3d 361, 363 (2d Cir. 1997);

o

In re Dorsainvil,

ll9

F

(lst Cir.

1999);

.3d 245, 247 -48, 25I (3d Cit. 1997);

o

(Jnited States v. Wheeler, 886 F.3d 415, 434 (4th Cir. 2018), cert. denied,
139 S. Ct. 1318 (2019);

o

Reyes-Requena v. (Inited States, 243

o

Martin v. Perez,319 F.3d 799,805 (6th Cir. 2003);

o

In re Davenport,147 F.3d 605,

o

Alaimalo v. United States,645 F.3d 1042,1047 (9th Cir. 201l);

o

In re Smith,285 F.3d 6, 8 (D.C. Cir.2002);

o

Abdullahv. Hedrick,392F.3d957,963 (8th Cir. 2004).

6ll

F

.3d 893, 904 (5th Cir. 2001);

(7th Cir. 1998);

As the Government recently put it, these circuits "generally require [] a prisoner to
demonstrate a 'material change in the applicable law' since his initial Section 2255 motion
that undermines his

conviction-for example, by indicating that his conduct was not in fact
t6

a crime on a ground that previously was foreclosed by controlling precedent." Hueso v.

Barnhart,No.

19- 1365,

Brief in Opposition at 17 (U.S. Sept. 11,2020).

Although each of the Circuits articulates its test in its own ways, the basis for
retroactivity is that new interpretations of law reflect meaning from enactment. See Rivers
v. Roadway Exp., Inc.,511 U.S. 298,312-13 (1994) ("A judicial construction of a statute

is an authoritative statement of what the statute meant before as well as after the decision
of the case giving rise to that construction."). The Second Circuit has stated that its test is

"similar" to the rules applied by other courts; the Third Circuit has highlighted the
"common theme" uniting the approaches; and the Ninth Circuit has described its rule

as

being shared by "many of our sister circuits." Cephas v. Nash,328 F.3d 98, 104 n.6 (2d
Cir. 2003); United States v. Brooks,230

F

.3d 643,648 (3d Cir. 2000); Stephens v. Herrera,

464F.3d 895, 898 (9th Cir. 2006) (aligning Ninth Circuit rule with rules in Second, Third,
Fourth, Fifth, Seventh, Eighth, and, at the time, Eleventh Circuits). The Ninth Circuit
general statement of the rule in Alaimalois correct and should be adopted.

C.

Two Courts Of Appeals Take The Opposite Position.

The Tenth and Eleventh Circuits stand in stark contrast to the majority view. These
courts hold thato even when binding circuit precedent foreclosed a claim, and even

if the

prisoner is actually innocent of the crime for which he is imprisoned as a result of that
precedent being overruled, S 2255 is not "inadequate or ineffective" to test the legality

of

detention as required to invoke the saving clause as long as the petitioner was technically
allowed to raise that certain-to-lose claim in a first g 2255 motion.

t7

The Tenth Circuit in a split decision found "that the plain language of $ 2255 means

what

it

says and says what

it means: a prisoner can proceed to

S

2241 only

if

his initial

5 2255 motion was itself inadequate or ineffective to the task of providing the petitioner

with a chance to test his sentence or conviction." Prost v. Anderson, 636 F.3d 578, 587

20ll ). In so holding, the cotrrt

rej ected the

"novelty" test, under which the saving

clause is open when a legal argument had not been

"in circulation at the time of his first

(

1

Oth Cir.

S 2255

motion,"

as

well

as the "erroneous

circuit foreclosure" test allowing saving clause

petitions when the circuit law at the time of the initial motion plainly foreclosed the claim.

Id. at 589-93. Instead, the court held that the saving clause only reaches cases in which

a

petitioner physically cannot file the 5 2255 motion; for example, where the sentencing
ooliterally dissolve[d]." Id. at 588. Therefore, as long as
court has been "abolished" or

a

petitioner could have raised even a doomed-to-fail claim in a $ 2255 petition, the Tenth

Circuit bars relief. As with the Prost panel decision, the order denying rehearing en banc
inProst was evenly divided. Prost,No. 08-1455, Order (lOth Cir. May 26,2011).
Before Prost, the Eleventh Circuit had sided with the majority view and permitted

saving clause petitions based on intervening decisions of statutory interpretation.
Woffird v. Scott,

177

F.3d 1236, 1244

Goodwill Indus.-Suncoast,

(llth Cir. 1999), overruled by McCarthan

Inc.,85l F.3d

1076

v.

See

Dir. of

(l1th Cir. 2017) (en banc). But in

McCarthan, the Eleventh Circuit overruled Wofford, relying in part on Prost. In a 6-5
splintered decision that generated six different opinions, the majority held that"a change

l8

in

caselaw does not make a motion

to vacate a prisoner's

sentence 'inadequate or

ineffective to test the legality of his detention,' 28 U.S.C. $ 2255(e)." 851 F.3d at 1080.
The Eleventh Circuit decisions are especially pertinent to this case because Mr.

Lewis was double-jinxed in his earlier litigation. Not only did the Eleventh Circuit
summarily deny his petition for habeas corpus relief by mischaracteizing Burrage as a
procedural, rather than a substantive, decision, the court would not have entertained the

petition in any event based on McCarthan. The differences in treatment depending on the
irrational variable of place of custody demonstrates the need for national uniformity.
D

The Minority View Of The Scope Of The Escape Hatch Violates Core
Protections Against Incarceration Beyond The Scope Of Legislative
Enactments.

The Tenth and Eleventh Circuits' approaches are inconsistent with this Court's
repeated view of actual innocence requiring a remedy.

A

defendant becomes "factually"

innocent when intervening authority retroactively changes the relevant legal parameters for

the statutory offense. see Fiore v. white,53l u.s.225,228 (2001) (state cannot,
consistently with the Due Process Clause, convict a defendant for conduct that its criminal
statute, as properly interpreted, does not prohibit); Bousley v. United States, 523 U.S. 614,

622-23 (1998) (permitting review

of claim to

determine factual innocence based on

intervening change in federal law). To the same extent, Congress has explicitly instructed
that a citizen cannot be held in prison except pursuant to a valid criminal sentence.

U.S.C. ga001(a)

('No

18

citizen shall be imprisoned or otherwise detained by the United

States except pursuant to an Act of Congress.").
19

To comply with the Constitution's protection of the writ of habeas corpus, collateral
remedies must be available to adequately and effectively test the legality of incarceration.
Swain v. Pressley, 430[J.5.372,351 (1977). The prisoner has the right to "a meaningful

opportunity to demonstrate that he is being held pursuant to 'the erroneous application or
interpretation of relevant law."' Boumediene v. Bush, 553 IJ.S 723, 779 (2008) (quoting
1NS

v.

St.

Cyr,533 U.S. 289, 302(2001)). "Congress should 'not be presumed to have

effected such denial

of habeas relief absent an unmistakably clear statement to the

contrary."' Boumediene,553 U.S. at 738 (quotingHamdanv. Rumsfeld,548 U.S. 557, 575
(2006)).

This Court has repeatedly noted the importance of an available remedy for an
allegationof actualinnocence.See Hollandv. Florida,560 U.S.631,648-49 (2010)("The
importance of the Great Writ, the only writ explicitly protected by the Constitution, Art. I,
$ 9,

cl. 2, alongwith congressional efforts to harmonizethe new statute with prior law,

counsels hesitancy before interpreting [Antitenorism and Effective Death Penalty Act]'s

statutory silence as indicating a congressional intent to close courthouse doors thata strong
equitable claim would ordinarily keep open."). Actual innocence has been a core reason

for the writ, which this Court has protected in interpreting the AEDPA. McQuiggin

v.

Perkins,569 U.S. 383,397 (2013) (applying Schlup v. Delo,5l3 U.S. 298 (1995), to the

AEDPA statute of limitations); see also Maples v. Thomas, 565 U.S. 266, 289 (2012)
(confirming that "'fundamental fairness fremains] the central concern of the writ of habeas

corpus"') (quoting Dretke v. Haley,541 U.S. 386,393 (2004)).
20

E.

This Court Should Grant Certiorari To Resolve The Circuit Conflict
And Address The Government's Procedural Advantage From Taking
Inconsistent Substantive Legal Positions.

Despite acknowledging the split and having asked the Court to resolve it in the past,
the United States has repeatedly opposed certiorari in a number of subsequent cases, largely

on two grounds: that the Court has apparently decided to tolerate the conflict; and that the
case provides a poor vehicle

for review. The first argument ignores this Court's primary

consideration on petitions for writs of certiorari of the need to resolve conflicts among the
courts of appeals. The second provides no barrier to granting certiorari here. The glaring

circuit conflict should be left unresolved no longer, especially in a context where, by taking
inconsistent legal positions, the government evaded $ 2255(e) jurisdiction on the merits

of

the defendant's claim.

The subject of the conflict is exceptionally important. The individual stakes are
enormous, with the answer to the question presented determining whether individuals who

were wrongly convicted of inapplicable crimes

will remain incarcerated or allowed their

freedom (or at least a new trial). At the same time, the depth of the split demonstrates that
the question is recurring. Indeed, this is the rare situation in which every regional court

of

appeals has weighed in on the question. The sheer number of petitions for certiorari raising

the question further confirms the frequency with which the issue arises. Although not
frequent, construction of federal criminal statutes is part of this Court's routine docket. See,
e.g., Rehaif v. tJnited States,139 S.

Ct.2I9l

2t

(2019); Mathis v. United States,136 S. Ct.

2243 (2016); hambers v. (Jnited States,555 U.S. 122 (2009); United States v. Santos,553

U.S. 507 (2008); Begay v. United States,553 U.S. 137 (2008).
The disanay and confusion over when and how to apply the saving clause leads to
disparate treatment of similarly situated individuals. Take the case of the Bruce brothers.

In Bruce v. Warden Lewisburg (J9P,868 F.3d 170 (3d Cir. 2017), the Third Circuit
explained how two brothers were convicted of the same federal offenses, but only one was

permitted to file a saving clause petition under S 2255 (because he was imprisoned in the
Third Circuit) while the other was not (because he was held in the Eleventh). Id. at 180-81.

The court lamented the "disparate treatment" of the brothers and stressed that these
"difficulties"

are bound

to "remain, at least until Congress or the Supreme Court speaks on

the matter." Id.
As Bruce illustrates, this disparity in treatment is particularly inational because the

availability of the saving clause depends on the petitioner's place of confinement, not
conviction. See Rumtfrld v. Padilla, 542 U.S. 426, 442-43 (2004) (g 2241petitions are
ordinarily filed in the district of custody). Therefore, "the vagaries ofthe prison lottery will
dictate how much postconviction review a prisoner gets.

A federal inmate in Tennessee

can bring claims that would be thrown out were he assigned to neighboring Alabama. Like
cases are not treated

alike." Wright,939 F.3d at7l0 (Thapar, J., concurring).

The present case illustrates the unfair disparity in treatment based on the vagaries

of geography. Under the Eleventh Circuit's current law, Mr. Lewis had no basis for "escape
hatch" jurisdiction under $ 2255(e), while in the Ninth Circuit, he met the "escape hatch"
22

standard

for consideration of his claims. But

because he had been denied relief on

procedural grounds in the Eleventh Circuit, the Ninth Circuit refused to consider his claims.
The government, by capitalizing on a dismissal resulting from an inconsistent substantive
legal position, foreclosed any merits review from ever occurring.
Prominent jurists have called for resolution of the conflict. For example, then-Judge

Barrett, describing the state of affairs in the Seventh Circuit, commented that "the
complexity of our cases in this area is 'staggering.' We have stated the 'saving clause' test

in so many different ways that it is hard to identiff exactly what it requires." Chazen

v.

Marske,938 F.3d 851, 863 (7th Cir. 2019) (Banett, J., concurring). Similarly, Judge
Thapar urged this Court to "step in" sooner rather than later because "[t]he circuits are
already split. The

rift

is unlikely to close on its own." Wright,939 F.3d

at7l0 (Thapar,

J.,

concurring). Dissenting from denial of rehearing en banc inWheeler, Judge Agee described

the question presented as one of "significant national importance" that was "best
considered by the Supreme Court at the earliest possible date." United States v. Wheeler,

734F. App'x 892,893 (4th Cir. 2018). The Court should heed those pleas and resolve this
persistent and untenable conflict.

F'.

This Case Presents An Appropriate Vehicle For Resolving The Conflict.

This case presents the Court an appropriate vehicle for finally resolving the mature

circuit conflict by articulating the scope of the escape hatch under $ 2255(e). Mr. Lewis
relied on the escape hatch to make a claim of actual innocence under this Court's opinion
in Burrage, which represented a change in substantive law that occurred after Mr. Lewis
23

had already exhausted his initial appeal and first S 2255 motion. Nevertheless, the Ninth

Circuit concluded that Mr. Lewis failed to meet the requirements of $ 2255(e) because he
had raised his Buruage claim in previous post-conviction litigation in the Second and

Eleventh Circuits, notwithstanding that those courts erroneously found Burrage nonretroactive, counter to the government's concessions, and rejected the claim without ever
reaching its merits.

The Government's adoption of inconsistent substantive legal positions resulted in
an unwaffanted and unfair procedural advantage. By adopting the Government's position
on the previous litigation, the district court never reached the merits of Mr. Lewis's claims,

instead dismissing on jurisdictional grounds.
$ 2255(e), the Court should both

In adopting a uniform construction of

clari$'that the doors to the courthouse are open where

retroactive substantive constructions

of

statutes create questions regarding factual

innocence, and foreclose the government from asserting that, based on its inconsistent legal

positions, earlier litigation provided an adequate and effective forum for determining the

validity of a conviction.

24

Conclusion
For the foregoing reasons, the Court should grant

a

writ of certiorari for fulIbriefing

and review, or, in the alternative, grant the writ, vacate the judgment below, and remand

for consideration

based on the government's unwarranted procedural advantage from

inconsistent legal positions.
Dated this22ndday of

April,202l.

Stephen

Sady

Attorney for Petitioner

25

Case: 19-35018, 11/13/2020, ID: 11891692, DktEntry: 47-1, Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
NOV 13 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
MARTIN G. LEWIS,

No.

Petitioner-Appellant,
v.

U.S. COURT OF APPEALS

19-35018

D.C. No. 3:18-cv-01091-SI
MEMORANDUM*

JOSIAS SALAZAR,
Respondent-Appellee.
Appeal from the United States District Court
for the District of Oregon
Michael H. Simon, District Judge, Presiding
Argued and Submitted September 2, 2020
Seattle, Washington
Before: HAWKINS and McKEOWN, Circuit Judges, and KENDALL,** District
Judge.
Petitioner Martin G. Lewis appeals the district court’s decision denying his
28 U.S.C. § 2241 habeas petition for want of jurisdiction. The parties are familiar
with the facts, so we do not repeat them here. Jurisdiction over petitioner’s appeal

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Virginia M. Kendall, United States District Judge for the
Northern District of Illinois, sitting by designation.

Appendix 1

Case: 19-35018, 11/13/2020, ID: 11891692, DktEntry: 47-1, Page 2 of 4

is conferred by 28 U.S.C. §§ 1291 and 2253. The Court reviews the dismissal of a
habeas corpus petition de novo. Ivy v. Pontesso, 328 F.3d 1057, 1059 (9th Cir.
2003). The Court also reviews de novo whether a district court has jurisdiction
over a § 2241 petition. Stephens v. Herrera, 464 F.3d 895, 897 (9th Cir. 2006).
We affirm.
A federal prisoner who wishes to challenge the legality of his federal
conviction or sentence generally must do so by way of a motion to vacate, set aside,
or correct the sentence under 28 U.S.C. § 2255. Harrison v. Ollison, 519 F.3d 952,
954 (9th Cir. 2008). Only the sentencing court has jurisdiction in a § 2255 case.
Hernandez v. Campbell, 204 F.3d 861, 864 (9th Cir. 2000) (per curium). A prisoner
challenging the manner, location, or conditions of that sentence’s execution must
bring a petition for a writ of habeas corpus under 28 U.S.C. § 2241 in the district
where the petitioner is in custody. Id.
Despite the limitations, an exception exists by which a federal prisoner may
seek relief under § 2241, referred to as the “savings clause” or “escape hatch” of
§ 2255. Harrison, 519 F.3d at 956. “[I]f, and only if, the remedy under § 2255 is
‘inadequate or ineffective to test the legality of his detention’” may a prisoner
proceed under § 2241. Marrero v. Ives, 682 F.3d 1190, 1192 (9th Cir. 2012)
(quoting Stephens, 464 F.3d at 897). We have recognized that it is a narrow
exception. Ivy, 328 F.3d at 1059. The exception will not apply merely because

2

Appendix 2

Case: 19-35018, 11/13/2020, ID: 11891692, DktEntry: 47-1, Page 3 of 4

§ 2255’s gatekeeping provisions, such as the statute of limitations or the limitation
on successive petitions, now prevent the courts from considering a § 2255 motion.
Id.
We have held that § 2255 provides an “inadequate or ineffective” remedy,
allowing a petitioner to proceed under § 2241, when the petitioner: “(1) makes a
claim of actual innocence, and (2) has not had an unobstructed procedural shot at
presenting that claim.” Harrison, 519 F.3d at 959 (quoting Stephens, 464 F.3d at
898); accord Marrero, 682 F.3d at 1192.
Lewis believes the district court erred when it concluded that he had an
adequate procedural opportunity to present his claim that Burrage v. United States,
571 U.S. 204 (2014), has retroactive effect on the grounds that he raised it in two
other courts after his first § 2255 motion. Lewis argues this is reversible error under
Alaimalo v. United States, 645 F.3d 1042 (9th Cir. 2011). According to Lewis, the
correct timeframe under the inadequate or ineffective remedy framework stops at
the time he exhausted his first § 2255 motion because later proceedings were
“incorrectly barred on procedural grounds.”
Alaimalo explains that in determining whether the petitioner had an adequate
procedural opportunity, the court considers: “(1) whether the legal basis for
petitioner's claim did not arise until after he had exhausted his direct appeal and first
§ 2255 motion; and (2) whether the law changed in any way relevant to petitioner’s

3

Appendix 3

Case: 19-35018, 11/13/2020, ID: 11891692, DktEntry: 47-1, Page 4 of 4

claim after that first § 2255 motion.” 645 F.3d at 1047 (citing Harrison, 519 F.3d
at 960). The district court reasoned that while Lewis did not have an opportunity to
present his claim that Burrage has retroactive effect during his direct appeal or his
first § 2255 motion, he had already presented the claim in two separate motions for
leave to file a successive § 2255 motion in the Second Circuit and in another § 2241
habeas action in the Eleventh Circuit.
Because Lewis has already had multiple opportunities to bring his Burrage
claim, he cannot show that his remedy under § 2255 is inadequate or ineffective to
test the legality of his detention. The district court was correct to dismiss Lewis’s
petition for want of jurisdiction.
AFFIRMED.

4

Appendix 4

Case 3:18-cv-01091-SI

Document 13

Filed 12/20/18

Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
MARTING. LEWIS,

Case No. 3:18-cv-01091-SI

Petitioner,

ORDER TO DISMISS

v.
WARDEN SALAZAR,
Respondent.
SIMON, District Judge.
This 28 U.S.C.

§

2241 habeas corpus case comes before the

Court on Respondent's Motion to Dismiss for Want of Jurisdiction
(#10). For the reasons that follow, the Motion is granted.
BACKGROUND

According

to

the

case

presented

by

the

Government,

Petitioner was a member of a criminal organization in New York
when, in 2002, a fellow member paid him $10,000 to murder Joseph
Conigliaro.

Petitioner shot Conigliaro twice in the head,

1 - ORDER TO DISMISS

Appendix 5

once

Case 3:18-cv-01091-SI

Document 13

Filed 12/20/18

Page 2 of 11

in the neck, and four times in the torso. 1 Conigliaro was still
conscious when he was admitted to the hospital,
that

day.

As

a

result,

in

2002,

Petitioner

but died later

was

charged with

conspiracy to commit murder in aid of racketeering,
aid of

racketeering,

and

use

of

a

firearm during

murder in
a

crime

of

sought

to

violence.
Petitioner proceeded to

a

jury trial

where

he

call a defense expert concerning the victim's cause of death. He
wished to call his own pathologist to testify that Conigliaro
died primarily as a result of his preexisting pneumopericardia,
a

medical

around the

condition
heart.

whereby

The

defense

air

expert

medical team intubated Conigliaro,
pneumopericardia

and

enters

contributed

the

pericardium

theorized

that

area

when the

the intubation triggered his
to

stopping

his

expert could not pinpoint a single cause of death,

heart.

The

and was of

the opinion that the victim died of a variety of causes.
The

trial

judge

refused to

allow the

expert

to testify,

finding that "no reasonable juror could have reasonable doubt on
the

issue

of

causation."

A jury

convicted

Petitioner

of

all

charges, and the trial court sentenced him to life in prison.

1 Although Petitioner disagrees with some of these characterizations, such as
his affiliation with a crime family and the number of times he shot
Conigliaro, such differences are not material to the Court's decision.

2 - ORDER TO DISMISS

Appendix 6

Case 3:18-cv-01091-SI

Document 13

Filed 12/20/18

Page 3 of 11

Petitioner took a direct appeal wherein he argued a
of

prosecutorial

Circuit

misconduct

affirmed the

trial

not

relevant

court's

The

here.

decision,

but

claim
Second

remanded the

case for sentencing considerations in light of United States v.
543

Booker,

validated

U.S.

220

(2005).

Petitioner's

life

On

remand,

sentence,

and

the

District

the

Second

Court

Circuit

subsequently affirmed that sentence.
On May 27, 2007,

Petitioner filed a 28 U.S.C. § 2255 Motion

in the Southern District of New York which the
dismissed

on

its

denied

Circuit

merits

on

September

21,
for

request

Petitioner's

District Court

2009.
a

The

Second

certificate

of

appealability and dismissed the appeal on July 9, 2013.
In

2014,

States,
heroin

571
to

the

U.S.

the

Supreme
204

a

extended drug binge."

Id

injected cooked oxycodone,

the

In

(2014)

victim,

the heroin.

Court

home

Burrage,

long-time
at

206.

drug

yielded

Burrage

the

user,

v.

United

defendant
who

was

on

sold
"an

The victim smoked marijuana,

then purchased,

The following morning,

victim's

decided

cooked and injected

the victim died. A search of
alprazolam,

heroin,

clonazepam,

oxycodone, hydrocodone, and other drugs.
The

defendant

in

Burrage

heroin that resulted in death,

was

convicted

of

distributing

thereby subjecting him to a 20-

year mandatory minimum sentence under the Controlled Substances
3 - ORDER TO DISMISS

Appendix 7

Case 3:18-cv-01091-SI

Act

("CSA").

results"

The

Document 13

Supreme

enhancement

Court

Filed 12/20/18

determined

of the CSA was

not

Page 4 of 11

that

the

"death

appropriately applied

and reasoned, "at least where use of the drug distributed by the
defendant

is

not

an

independently

sufficient

victim's death or serious bodily injury,
liable

under

the

penalty

enhancement

cause

of

the

a defendant cannot be

provision

of

[the

unless such is a but-for cause of the death or injury."

CSA]
Id at

218-219.

for

On February 10,

2015,

leave to file

successive

should

Burrage

establish

his

a

apply

Petitioner asked the Second Circuit
§

2255 motion.

retroactively

actual

innocence

and

would

because

he

He argued that
enable
did

him

not

to

cause

Conigliaro's death. On March 19, 2015, the Second Circuit denied
Petitioner's motion. It specifically determined that Burrage did
not

announce

new

a

constitutional

rule

to

applied

be

retroactively, and instead amounted to an application of Alleyne
v. United States,

570 U.S.

99 (2013) and Apprendi v. New Jersey,

530 U.S. 466 (2000), neither of which apply retroactively. Lewis
v. United States, 1:14-cv-010255-JSR (S.D.N.Y.), ECF No. 4.

On March 28,
Second

Circuit

§ 2255

proceeding.

2016,

seeking

Petitioner filed another motion in the
leave

This

time,

to

file

a

successive

Petitioner

Supreme Court's decision in Montgomery v.
4 - ORDER TO DISMISS

Appendix 8

reasoned
Louisiana,

28

U.S.C.

that

the

136 S. Ct.

Case 3:18-cv-01091-SI

718

compels

(2016) , 2

Document 13

the

denied

of

retroactively

and

Alleyne

to

cases

on

and

Apprendi

applies

the Second Circuit
involved

Burrage

that

collateral

Page 5 of 11

Burrage

that

One month later,

reiterating

motion,

application

conclusion

the

retroactively to his case.

Filed 12/20/18

does

review.

an

not

apply

v.

United

Lewis

States, No. 16-935 (2d Cir. 2016) ECF #17.

On

August

8,

2016,

Petitioner

filed

a

28

U.S.C.

habeas corpus case in the Middle District of Florida,
of

his

Burrage

incarceration at
created

that

He

once

again

right

constitutional

new

a

time.

District

he is

Court

innocent

for

the

argued that

that

of causing Conigliaro' s

Middle

District

of

2241

the place

retroactively to cases on collateral review and that,
of Burrage,

§

Florida

applies
in light

death.
found

The
that

Petitioner failed to demonstrate that § 2255 was an inadequate
and

remedy

jurisdiction.
neither

dismissed

therefore
In

Burrage

doing
nor

any

so,

it

other

the

case

specifically
pertinent

for

lack

concluded

Supreme

Court

of
that
or

Eleventh Circuit decision applied retroactively to Petitioner's
case. Petitioner's Exhibit A, p. 5.
In Miller v. Alabama, 567 U.S. 460
(2012), the Supreme Court held that
"mandatory life without parole for those under the age of 18 at the time of
their crimes violates the Eighth Amendment's prohibition on 'cruel and
unusual punishments.'" Id at 465. On January 25, 2016, the Supreme Court
concluded that it had announced a new, substantive rule of law in Miller that
applied retroactively to cases on collateral review. Montgomery v. Louisiana,
U.S.
, 136 S.Ct. 718, 736 (2016).

2

5 - ORDER TO DISMISS

Appendix 9

Case 3:18-cv-01091-SI

Document 13

Filed 12/20/18

Page 6 of 11

Petitioner appealed this decision, but the Eleventh Circuit
found Petitioner's appeal to be frivolous and therefore denied
him leave to proceed in forma pauperis. Like the District Court,
it

also

determined

conclusion

of

that

any

Petitioner's

change

initial

in
28

caselaw
U.S.C.

§

following

the

2255

not

did

render§ 2255 inadequate or ineffective to test the legality of
his detention.

Lewis v.

FCC Coleman

5:16-cv-00508-WTH-

Warden,

PRL (M.D. Fl.), ECF No. 12.
Petitioner,

now

incarcerated

at

FCI-Sheridan,

filed

this

new 28 U.S.C. § 2241 habeas corpus case on June 21, 2018 wherein
he once again asserts that Burrage applies retroactively to his
case. Respondent asks the Court to dismiss this case for lack of
jurisdiction

because

28

U.S.C.

§

2241

is

not

Petitioner's

appropriate remedy.
DISCUSSION

"A federal prisoner who seeks to challenge the legality of
confinement must generally rely on a § 2255 motion to do so."
Marrero v.

under the

Ives,

682 F.3d 1190,

1192

(9th Cir.

"savings clause" or "escape hatch"

2012).
of §

However,

2255 (e),

a

federal inmate may seek relief pursuant to 28 U.S.C. § 2241 "if,
and

only

if,

the

remedy

under

§

2255

is

'inadequate

or

ineffective to test the legality of his detention.'" Id (citing
Stephens v. Herrera, 464 F.3d 895, 897 (9 th Cir. 2006).

6 - ORDER TO DISMISS

Appendix 10

Case 3:18-cv-01091-SI

A petitioner
where he:
not

had

claim."

"(1)
an

Document 13

satisfies

the

savings

unobstructed

Stephens v.

assessing

procedural

Page 7 of 11

clause

procedural

Herrera,

whether

a

shot

at

§

of

makes a claim of actual innocence,

and

2255(e)
(2)

presenting

464 F. 3d 895, 898

(internal quotation marks omitted).
when

Filed 12/20/18

has
that

(9th Cir. 2006)

The two factors to consider

petitioner

opportunity to present his

had

an

claim of

unobstructed
innocence are:

(1) whether the legal basis for petitioner's claim did not arise
until the conclusion of his direct appeal and first
§ 2255 motion; and

relevant

way

(2) whether the applicable law changed in any

after

§ 2255 motion.

28 U.S. C.

the

conclusion

Harrison v. Ollison,

of

the

petitioner's

first

519 F.3d 952, 960 (9th Cir.

2008).
Petitioner
Burrage

in

decision,

this
he

can

case

asserts

now

that

establish

in

that

light
he

is

of

the

actually

innocent because he that he did not cause Conigliaro's death. He
further reasons that because Burrage was not decided until well
after the conclusion of his direct appeal and initial 28 U.S.C.
§

2255

motion,

he

never

had

an

unobstructed

opportunity to present his claim of innocence.

7 - ORDER TO DISMISS

Appendix 11

procedural

To support his

Case 3:18-cv-01091-SI

argument

Document 13

Burrage's

for

retroactive

Terry,

heroin

the

resulting

results"

in

enhancement

defendant

was

the

of

of

mandatory minimum term,
20

years

After
§

to

filing

2241

sentencing
( 2)

the

CSA

two

he

points

of

to

distributing

indi victuals.

subjected

Terry

The

to

a

"death
20-year

and increased the statutory maximum from

imprisonment.

See

appeals,

petition

the

(1)

application,

convicted

unsuccessful

habeas

argued that:

and

life

death

Page 8 of 11

(D. Ariz. May 23, 2017) . 3

Terry v. Shartle, 2017 WL 2240970
In

Filed 12/20/18

in

21

U.S.C.

Terry

District

of

84l(b) (1) (c).

§

filed

a

Arizona

28

U.S.C.

wherein

he

he was actually innocent of the "death results"

enhancement

Burrage

by

applies

virtue

of

the

retroactively

reasoning

to

cases

Burrage;

in

on

collateral

review. The District of Arizona noted that the Fifth and Seventh
Circuits
to

cases

had both
on

Burrage applies

concluded that

collateral

review,

4

found

the

retroactively

reasoning

of

those

cases persuasive, and granted Terry habeas corpus relief.
While Petitioner in the case at bar had no opportunity to
present

his

Burrage

first 28 U.S.C.

claim during

§ 2255 motion,

either

direct

appeal

or

his

he presented precisely the claim

he makes here in another 28 U.S. C.

§

2241 habeas action in the

This citation is to the underlying Report and Recommendation, which the
District Judge adopted in 2017 WL 5151130 (D. Ariz. Nov. 7, 2017).

3

See Santillana v. Upton, 846 F.3d 779, 783-84 (5 th Cir. 2017); Krieger v.
United States, 842 F.3d 490, 499-500 (7 th Cir. 2016).

4

8 - ORDER TO DISMISS

Appendix 12

Case 3:18-cv-01091-SI

Middle

District of

apply

retroactively

Document 13

Florida.
to

That

Filed 12/20/18

court

Petitioner's

found

case,

Page 9 of 11

Burrage did

and

the

Circuit found the subsequent appeal to be frivolous.
also tested the viability of the

not

Eleventh
Petitioner

claim when seeking leave to

file a successive§ 2255 motion in the Southern District of New
York but,

as detailed above,

the Second Circuit twice assessed

the arguments Petitioner makes here and specifically stated that
Burrage does not apply retroactively.

Al though
results

he

courts

finds

have

repeatedly

disappointing,

provided

given

the

Petitioner

procedural

with

history

underlying this case it is difficult for him to come to this
Court seeking to utilize the •escape hatch" of§ 2255(e) on the
basis

that

he

has

not

yet

had

an

unobstructed

procedural

opportunity to present his Burrage claim. In order to do so, he
must demonstrate that there has been a "material change in the
applicable law" governing his claim. Harrison,

519 F. 3d at 960.

Neither the Ninth Circuit nor the Supreme Court have held that
Burrage

applies

retroactively

to

cases

on

collateral

review.

While the District of Arizona applied Burrage retroactively in
the context of the CSA, that decision does not represent binding
authority
directly

which

would

contrary

retroactivity

to

issue

cause
the
in

this

various
light

Court
courts

of

9 - ORDER TO DISMISS

Appendix 13

the

to

issue

which

a

decision

assessed

particular

facts

the
of

Case 3:18-cv-01091-SI

Petitioner.

To

Filed 12/20/18

Page 10 of 11

and

resolved

that

issue

conclude

otherwise

leads

to

case

Petitioner's

Document 13

the

Petitioner continues to present the same claim,
same facts,

adversely
result

to

here:

grounded in the

to different courts residing in different circuits

with the hopes of achieving an inconsistent result.
To be clear,
resolve

whether

retroactively
remains

open

to
in

this Court's decision need not and does not
Burrage
cases
the

announces
on

Ninth

a

collateral
Circuit.

new

rule

review,

Instead,

that
an

in

demonstrate

that

he

has

not

had

an

issue

light

particular procedural history of Petitioner's case,
unobstructed

applies
that

of

the

he fails to
procedural

opportunity to present his claim of innocence, and therefore he
is unable to pass through the ftescape hatch" of§ 2255(e).
CONCLUSION

For
Dismiss

the
(#10)

reasons

identified above,

is granted,

Respondent's Motion

to

and the Petition for Writ of Habeas

Corpus (#1) is dismissed for lack of jurisdiction.

Ill
Ill
Ill
Ill
Ill
Ill
10 - ORDER TO DISMISS

Appendix 14

Case 3:18-cv-01091-SI

Should
issues

a

Document 13

Petitioner

wish

Certificate

of

to

Filed 12/20/18

appeal

this

Appealability

on

Page 11 of 11

result,

the

the

issues

Court
of:

(1) whether Petitioner comes to this Court never having had an
unobstructed
claim;

and

procedural
(2)

if so,

opportunity

to

present

his

whether Burrage applies retroactively to

cases on collateral review.
IT IS SO ORDERED.
DATED this

')
,

()

'L-

Burrage

day
Michae11 H. Simon
United States District Judge

11 - ORDER TO DISMISS

Appendix 15

Case: 19-35018, 01/22/2021, ID: 11975879, DktEntry: 49, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JAN 22 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MARTIN G. LEWIS,

No.

Petitioner-Appellant,
v.
JOSIAS SALAZAR,

19-35018

D.C. No. 3:18-cv-01091-SI
District of Oregon,
Portland
ORDER

Respondent-Appellee.
Before: HAWKINS and McKEOWN, Circuit Judges, and KENDALL,* District
Judge.
The panel votes to deny the petition for rehearing. Judge McKeown votes to
deny the petition for rehearing en banc, and Judges Hawkins and Kendall so
recommend. The full court has been advised of the petition for rehearing en banc
and no active judge has requested a vote on whether to rehear the matter en banc.
Fed. R. App. P. 35.
The petition for panel rehearing and the petition for rehearing en banc are
DENIED.

*

The Honorable Virginia M. Kendall, United States District Judge for
the Northern District of Illinois, sitting by designation.

Appendix 16

28 U.S.C. § 2241 (2006)
§ 2241. Power to grant writ
(a) Writs of habeas corpus may be granted by the Supreme Court, any justice thereof, the district
courts and any circuit judge within their respective jurisdictions. The order of a circuit judge shall
be entered in the records of the district court of the district wherein the restraint complained of is
had.
(b) The Supreme Court, any justice thereof, and any circuit judge may decline to entertain an
application for a writ of habeas corpus and may transfer the application for hearing and
determination to the district court having jurisdiction to entertain it.
(c) The writ of habeas corpus shall not extend to a prisoner unless(1) He is in custody under or by color of the authority of the United States or is committed
for trial before some court thereof; or
(2) He is in custody for an act done or omitted in pursuance of an Act of Congress, or an
order, process, judgment or decree of a court or judge of the United States; or
(3) He is in custody in violation of the Constitution or laws or treaties of the United States;
or
(4) He, being a citizen of a foreign state and domiciled therein is in custody for an act done
or omitted under any alleged right, title, authority, privilege, protection, or exemption
claimed under the commission, order or sanction of any foreign state, or under color
thereof, the validity and effect of which depend upon the law of nations; or
(5) It is necessary to bring him into court to testify or for trial.
(d) Where an application for a writ of habeas corpus is made by a person in custody under the
judgment and sentence of a State court of a State which contains two or more Federal judicial
districts, the application may be filed in the district court for the district wherein such person is in
custody or in the district court for the district within which the State court was held which
convicted and sentenced him and each of such district courts shall have concurrent jurisdiction to
entertain the application. The district court for the district wherein such an application is filed in
the exercise of its discretion and in furtherance of justice may transfer the application to the other
district court for hearing and determination.
(e)(1) No court, justice, or judge shall have jurisdiction to hear or consider an application for a writ
of habeas corpus filed by or on behalf of an alien detained by the United States who has been
determined by the United States to have been properly detained as an enemy combatant or is
awaiting such determination.
(2) Except as provided in paragraphs (2) and (3) of section 1005(e) of the Detainee Treatment Act
of 2005 (10 U.S.C. 801 note), no court, justice, or judge shall have jurisdiction to hear or consider
any other action against the United States or its agents relating to any aspect of the detention,

Appendix 17

transfer, treatment, trial, or conditions of confinement of an alien who is or was detained by the
United States and has been determined by the United States to have been properly detained as an
enemy combatant or is awaiting such determination.

Appendix 18

28 U.S.C. § 2244
§ 2244. Finality of determination
(a) No circuit or district judge shall be required to entertain an application for a writ of habeas
corpus to inquire into the detention of a person pursuant to a judgment of a court of the United
States if it appears that the legality of such detention has been determined by a judge or court of
the United States on a prior application for a writ of habeas corpus, except as provided in section
2255.
(b)(1) A claim presented in a second or successive habeas corpus application under section
2254 that was presented in a prior application shall be dismissed.
(2) A claim presented in a second or successive habeas corpus application under section 2254
that was not presented in a prior application shall be dismissed unless(A) the applicant shows that the claim relies on a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme Court, that was previously unavailable;
or
(B)(i) the factual predicate for the claim could not have been discovered previously through
the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the evidence as a whole,
would be sufficient to establish by clear and convincing evidence that, but for constitutional
error, no reasonable factfinder would have found the applicant guilty of the underlying offense.
(3)(A) Before a second or successive application permitted by this section is filed in the district
court, the applicant shall move in the appropriate court of appeals for an order authorizing the
district court to consider the application.
(B) A motion in the court of appeals for an order authorizing the district court to consider a
second or successive application shall be determined by a three-judge panel of the court of appeals.
(C) The court of appeals may authorize the filing of a second or successive application only if
it determines that the application makes a prima facie showing that the application satisfies the
requirements of this subsection.
(D) The court of appeals shall grant or deny the authorization to file a second or successive
application not later than 30 days after the filing of the motion.
(E) The grant or denial of an authorization by a court of appeals to file a second or successive
application shall not be appealable and shall not be the subject of a petition for rehearing or for a
writ of certiorari.
(4) A district court shall dismiss any claim presented in a second or successive application that
the court of appeals has authorized to be filed unless the applicant shows that the claim satisfies
the requirements of this section.
(c) In a habeas corpus proceeding brought in behalf of a person in custody pursuant to the
judgment of a State court, a prior judgment of the Supreme Court of the United States on an appeal
or review by a writ of certiorari at the instance of the prisoner of the decision of such State court,
shall be conclusive as to all issues of fact or law with respect to an asserted denial of a Federal
right which constitutes ground for discharge in a habeas corpus proceeding, actually adjudicated
by the Supreme Court therein, unless the applicant for the writ of habeas corpus shall plead and

Appendix 19

the court shall find the existence of a material and controlling fact which did not appear in the
record of the proceeding in the Supreme Court and the court shall further find that the applicant
for the writ of habeas corpus could not have caused such fact to appear in such record by the
exercise of reasonable diligence.
(d)(1) A 1-year period of limitation shall apply to an application for a writ of habeas corpus by
a person in custody pursuant to the judgment of a State court. The limitation period shall run from
the latest of(A) the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the United States is removed, if the applicant was
prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could have been
discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State post-conviction or other
collateral review with respect to the pertinent judgment or claim is pending shall not be counted
toward any period of limitation under this subsection.

Appendix 20

28 U.S.C.A. § 2255 (2016)
§ 2255. Federal custody; remedies on motion attacking sentence
(a) A prisoner in custody under sentence of a court established by Act of Congress claiming the
right to be released upon the ground that the sentence was imposed in violation of the Constitution
or laws of the United States, or that the court was without jurisdiction to impose such sentence, or
that the sentence was in excess of the maximum authorized by law, or is otherwise subject to
collateral attack, may move the court which imposed the sentence to vacate, set aside or correct
the sentence.
(b) Unless the motion and the files and records of the case conclusively show that the prisoner is
entitled to no relief, the court shall cause notice thereof to be served upon the United States
attorney, grant a prompt hearing thereon, determine the issues and make findings of fact and
conclusions of law with respect thereto. If the court finds that the judgment was rendered without
jurisdiction, or that the sentence imposed was not authorized by law or otherwise open to collateral
attack, or that there has been such a denial or infringement of the constitutional rights of the
prisoner as to render the judgment vulnerable to collateral attack, the court shall vacate and set the
judgment aside and shall discharge the prisoner or resentence him or grant a new trial or correct
the sentence as may appear appropriate.
(c) A court may entertain and determine such motion without requiring the production of the
prisoner at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on the motion as from
a final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is authorized to apply
for relief by motion pursuant to this section, shall not be entertained if it appears that the applicant
has failed to apply for relief, by motion, to the court which sentenced him, or that such court has
denied him relief, unless it also appears that the remedy by motion is inadequate or ineffective to
test the legality of his detention.
(f) A 1-year period of limitation shall apply to a motion under this section. The limitation period
shall run from the latest of-(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental action
in violation of the Constitution or laws of the United States is removed, if the movant was
prevented from making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Court, if
that right has been newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented could have been
discovered through the exercise of due diligence.

Appendix 21

(g) Except as provided in section 408 of the Controlled Substances Act, in all proceedings brought
under this section, and any subsequent proceedings on review, the court may appoint counsel,
except as provided by a rule promulgated by the Supreme Court pursuant to statutory authority.
Appointment of counsel under this section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 by a panel of the
appropriate court of appeals to contain-(1) newly discovered evidence that, if proven and viewed in light of the evidence as a
whole, would be sufficient to establish by clear and convincing evidence that no reasonable
factfinder would have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the

Appendix 22

